No. 19-942

IN THE SUPREME COURT OF THE UNITED STATES

Laurel Zuckerman, as Ancillary Administratrix of the Estate of Alice Leffmann,
Petitioner,

Vv.
The Metropolitan Museum of Art,
Respondent.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Amicus
Curiae Brief of The 1939 Society, Bet Tzedek and The Holocaust Education Center
in the Desert, Inc. d/b/a Tolerance Education Center In Support of Zuckerman’s
Petition for Writ of Certiorari, contains 5,903 words, including footnotes, but
excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 19, 2020, at Los Angeles, California

[Pere we $ SKB

Benjamin G. Shatz

 

Manatt, Phelps & Phillips, LLP
11355 West Olympic Blvd.
Los Angeles, CA 90064
